                         U.S. Department of Agriculture

                            Office of Inspector General
                             Financial & IT Operations




              Audit Report

Statement on Auditing Standards No. 70 Report
on National Finance Center General Controls –
               Fiscal Year 2008




                               Report No. 11401-28-FM
                                      September 2008
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250
September 19, 2008



REPLY TO
ATTN OF:       11401-28-FM

TO:            Charles R. Christopherson, Jr.
               Chief Financial Officer
               Office of the Chief Financial Officer

THROUGH: Kathleen A. Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Statement on Auditing Standards No. 70 Report on the National Finance Center
               General Controls – Fiscal Year 2008


This report presents the results of our Statement on Auditing Standards (SAS) No. 70 audit at the
National Finance Center (NFC) for fiscal year 2008. The audit was conducted in accordance
with Government Auditing Standards issued by the Comptroller General of the United States and
the American Institute of Certified Public Accountants standards that are commonly referred to
as a SAS No. 70 audit. This report contains an unqualified opinion on the general control
environment and does not contain recommendations. The projection of any conclusions based
on our audit findings to future periods are subject to the risk that changes may alter the validity
of such conclusions. This report is intended solely for the management of NFC, its customer
agencies, and their auditors.

We appreciate the courtesies and cooperation extended to us during this review. If you have any
questions, please call me at (202) 720-6945, or have a member of your staff contact
Jane Bannon, Director, Administration and Finance Division, at (202) 720-1918.
Executive Summary
Statement on Auditing Standards No. 70 Report on the National Finance Center
General Controls – Fiscal Year 2008 (Audit Report No. 11401-28-FM)

Results in Brief    This report presents the results of our Statement on Auditing Standards (SAS)
                    No. 70 audit on the U.S. Department of Agriculture’s (USDA) National
                    Finance Center (NFC) for fiscal year 2008. Our objectives were to perform
                    procedures necessary to express opinions about whether (1) NFC’s
                    description of controls presents fairly, in all material respects, the aspects of
                    NFC controls that may be relevant to a customer agency’s internal control as
                    it relates to an audit of financial statements; (2) the controls included in the
                    description were placed in operation and suitably designed to achieve the
                    associated control objectives, if those controls were complied with
                    satisfactorily and customer agencies and subservice organizations applied the
                    controls specified in the description; and (3) the controls we tested were
                    operating with sufficient effectiveness to provide reasonable, but not
                    absolute, assurance that the associated control objectives were achieved
                    during the period from July 1, 2007, through June 30, 2008.

                    NFC uses the USDA National Information Technology Center (NITC) to
                    provide certain configuration management, contingency planning,
                    maintenance, media protection, physical and environmental protection,
                    system and communication protection, and system and information integrity
                    control activities for its Human Capital Management System (EmpowHR).
                    Our examination did not extend to NITC control activities, which were
                    evaluated in our SAS No. 70 audit for NITC (Audit Report No. 88501-12-
                    FM).

                    In our opinion, NFC’s description of controls presented fairly, in all material
                    respects, the relevant aspects of NFC controls. Also, in our opinion, the
                    controls included in the description were suitably designed and operating
                    with sufficient effectiveness to provide reasonable assurance that associated
                    control objectives would be achieved if the described policies and procedures
                    were complied with satisfactorily, and customer agencies applied the controls
                    specified in the NFC description of controls.

Recommendations
In Brief            We do not make any recommendations in this report.




USDA/OIG-A/11401-28-FM                                                                        Page i
Abbreviations Used in This Report


ABCO                Administrative Billing and Collection System
ADMIN               Miscellaneous Administrative Systems Group
CLER                Centralized Enrollment Clearinghouse System
DPRS                Direct Premium Remittance System
EmpowHR             Human Capital Management System
ID                  identification
ISA                 interconnection security agreement
NFC                 National Finance Center
NITC                National Information Technology Center
PAS                 Payroll Accounting System
PMSO                Position Management System
PPS                 payroll/personnel system
SAS                 Statement on Auditing Standards
SETS                security entry and tracking system
SSP                 system security plan
ST&E                security test and evaluation
USDA                U.S. Department of Agriculture




USDA/OIG-A/11401-28-FM                                             Page ii
Table of Contents

Executive Summary ................................................................................................................................. i 

Abbreviations Used in This Report ....................................................................................................... ii 

Report of the Office of Inspector General ............................................................................................ 1 

Exhibit A – National Finance Center Description of Controls ........................................................... 3 

Exhibit B – Office of Inspector General - Review of Selected Controls .......................................... 30 




USDA/OIG-A/11401-28-FM                                                                                                                    Page iii
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




Report of the Office of Inspector General
TO:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have examined the accompanying description of the controls referenced in exhibit A for the U.S.
Department of Agriculture’s (USDA) National Finance Center (NFC) and its subservice organizations
other than the USDA National Information Technology Center (NITC). Our examination included
procedures to obtain reasonable assurance about whether (1) the accompanying description presents
fairly, in all material respects, the aspects of NFC controls and the controls of NFC subservice
organizations other than NITC that may be relevant to a customer agency’s internal control as it relates
to the audit of financial statements; (2) the controls included in the description were suitably designed
to achieve the control objectives specified in the description, if those controls were complied with
satisfactorily and customer agencies and subservice organizations applied the controls specified in the
NFC description of controls; and (3) such controls had been placed in operation as of June 30, 2008.

NFC uses NITC for certain configuration management, contingency planning, maintenance, media
protection, physical and environmental protection, system and communication protection, and system
and information integrity control activities for its Human Capital Management System (EmpowHR).
The accompanying description includes only the relevant control activities of NFC and its subservice
organizations other than NITC and does not include NITC control activities. Our examination did not
extend to NITC control activities, which were evaluated in our Statement on Auditing
Standards No. 70 audit for NITC (Audit Report No. 88501-12-FM). The control objectives were
specified by NFC.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

In our opinion, NFC’s description of controls in exhibit A presents fairly, in all material respects, the
relevant aspects of NFC that had been placed in operation as of June 30, 2008. Also, in our opinion,
the controls included or referenced in exhibit A were suitably designed to provide reasonable
assurance that the specified control objectives would be achieved if the described controls were
complied with satisfactorily and customer agencies applied the controls contemplated in the design of
NFC’s controls.

USDA/OIG-A/11401-28-FM                                                                            Page 1
In addition to the procedures we considered necessary to render our opinion as expressed in the
previous paragraph, we applied tests to specific controls to obtain evidence about their effectiveness in
meeting the control objectives during the period from July 1, 2007, to June 30, 2008. The specific
controls and the nature, timing, extent, and results of our tests are identified in exhibit B. This
information will be provided to customer agencies of NFC and to their auditors to be taken into
consideration, along with information about the internal control at customer agencies, when making
assessments of control risk for customer agencies. In our opinion, the controls that we tested were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance that the
control objectives specified in the description of controls were achieved during the period from July 1,
2007, to June 30, 2008.

The relative effectiveness and significance of specific controls at NFC and its subservice organizations
other than NITC, and their effect on assessments of control risk at customer agencies, are dependent on
their interaction with the controls and other factors present at individual customer agencies. We have
performed no procedures to evaluate the effectiveness of controls at individual customer agencies as
part of this audit.

The description of controls at NFC and its subservice organizations other than NITC is as of
June 30, 2008, and information about tests of the operating effectiveness of specific controls covers the
period from July 1, 2007, through June 30, 2008. Any projection of such information to the future is
subject to the risk that, because of change, the description may no longer portray the controls in
existence. The potential effectiveness of specific controls at NFC and its subservice organizations
other than NITC is subject to inherent limitations and, accordingly, errors or fraud may occur and not
be detected. Furthermore, the projection of any conclusions, based on our findings, to future periods is
subject to the risk that changes may alter the validity of such conclusions. Finally, the accuracy and
reliability of data processed by NFC and the resultant reports ultimately rests with the customer agency
and any compensating controls implemented by such agency.

This report is intended solely for the management of NFC, its customer agencies, and their auditors.


/s/

Robert W. Young
Assistant Inspector General
 for Audit

September 19, 2008




USDA/OIG-A/11401-28-FM                                                                            Page 2
 The subsequent sections of the report, Exhibit A (pages 3
 through 29) and Exhibit B (pages 30 through 44), are not
being publicly released due to the sensitive security content.
